                        Audit of Revised Budget for
                              Fiscal Year 2004

                               December 2003

                     Reference Number: 2004-1C-019




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         December 3, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Revised Budget for Fiscal Year 2004
                              (Audit #20041C0210)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s revised Fiscal
       Year (FY) 2004 budget, dated October 8, 2003, for the period April 1, 2003, to
       March 31, 2004. According to the DCAA, this revised budget supersedes the
       contractor’s previous FY 2004 budget and includes some accounting changes. The
       purpose of this examination was to determine the reasonableness of the revised
       proposed forward pricing rates.
       The DCAA considers the contractor’s accounting system to be adequate for
       segregating, accumulating, and reporting Government contract costs. However, the
       budget and planning system is inadequate to ensure that the proposed rates and
       escalation factors are based on current, accurate, and complete cost and pricing data.
       The DCAA qualified its audit report because results of an assist audit have not been
       received. The results of the assist audit are considered essential to the conclusion of
       this examination. Additionally, the DCAA noted that additional costs may be questioned
       based on the results of the assist audit of proposed corporate changes.
       The DCAA stated that, except as qualified above, the contractor’s cost or pricing data
       submitted in support of the proposed indirect rate budget are adequate. The budget
       proposal was prepared in accordance with applicable Cost Accounting Standards and
       appropriate Federal Acquisition Regulations. The DCAA considers the proposal to be
       acceptable as a basis for negotiation of fair and reasonable indirect rates for use in
       pricing proposals.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.

Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
